                 Department of the Interior
                 Office of Inspector General



                                          Improvements
                                              Needed To
                                           Ensure Safety
                                           And Program
                                            Performance




Zia Day School
New Mexico




                                           Many Farms High School
                                                         Arizona




                   School Construction
                             Program
                            Bureau of Indian Affairs


                      Report No. W-FL-BIA-0047-2002
                                          February 2004
                   United States Department of the Interior

                                    Office of Inspector General
                                         Western Region
                                             Federal Building
                                      2800 Cottage Way, Suite E-2712
                                         Sacramento, California 95825


                                                                        February 24, 2004
                                                                                     7430

Memorandum

To:          Assistant Secretary for Indian Affairs

From:        Michael P. Colombo
             Regional Audit Manager

Subject:     Final Report on School Construction Program, Bureau of Indian Affairs
             (Report No. W-FL-BIA-0047-2002)

        The attached report presents the results of our review of the Bureau of Indian
Affair’s (BIA) school construction program. We concluded that the program has
improved educational opportunities for Native American students by replacing obsolete
and unsafe buildings with modern facilities. We also commend BIA for the actions taken
to implement its May 1999 Plan to Ensure the Integrity of School Construction Grants,
submitted to Congress. Opportunities still exist, however, for BIA to improve controls
over its school construction program in the areas of student safety and program
performance. Specifically:

       We were disturbed to find that no one in BIA ensures that school buildings are not
        occupied until identified safety deficiencies are corrected and BIA has inspected
        and certified the facilities for occupancy. Ten of the schools we reviewed were
        occupied before approval. The unauthorized use of these buildings has subjected
        students to undue risk.

       Applying current school construction grant requirements to Public Law 93-638
        self-determination contracts and self-governance compacts would facilitate better
        control of program funds, limit risk, and encourage greater program
        accountability.

       Establishing a project tracking system and adequate performance goals and
        indicators would help reduce delays in project completion. Thirty percent of the
        schools we reviewed exceeded BIA’s goal of completing design and construction
        within 3 years.

        We made nine recommendations that, if implemented, should improve BIA’s
management of its school construction program and increase the benefits of the program
to the Native American community. Given the increased funding and attention to the
program by Interior, the Administration, and Congress, these improvements are critical
for achieving effective program results.

        We did not receive an official response to the draft report, despite an extension to
of the response due date to February 18, 2004. Accordingly, all nine recommendations
are considered unresolved. The legislation, as amended, creating the Office of Inspector
General requires that we report to Congress semiannually on all audit reports issued, the
monetary effect of audit findings (see Appendix 1), actions taken to implement our audit
recommendations, and recommendations that have not been implemented.

        Please provide a written response to this report by March 26, 2004. The response
should supply the information requested in Appendix 5. We appreciate the cooperation
shown by BIA staff during our review. If you have any questions regarding this report,
please call me at (916) 978-5653.

Attachment

cc:    Office of Facilities Management and Construction
       Division of Safety and Risk Management
       Office of Indian Education Programs
       Focus Leader for Management Accountability and Audit Follow-up (PPM)
        (MS 5412)
       Audit Liaison Officer, Assistant Secretary and Bureau of Indian Affairs
        Director, Office of Audit and Evaluation, Bureau of Indian Affairs (MS 1800G)




                                             2
                     Executive Summary
                     Improvements Needed to Ensure Student Safety and Program
                     Performance

                     The Bureau of Indian Affairs (BIA)                       seven replacement projects funded from
                     funds or operates 187 schools in 23                      fiscal years 1998 through 2000 have been
                     states. The schools have a combined                      completed. An example is the Sac & Fox
                     enrollment of over 48,000 Native                         Settlement School in Tama, Iowa. The
                     American students and include the full                   school is state of the art, with athletic fields,
                     range of grades from kindergarten to                     computer stations, library, and facilities for
                     high school. Many of the schools,                        activities to preserve Native American
                     however, were built in the 1940s and                     cultural heritage.
                     1950s and have been poorly maintained,
                     with inadequate roofing and floors,
                     plumbing, heating, and lighting. They
                     are also obsolete and lack critical
                     capabilities such as science and
                     computer labs.

                     To address the problem of inadequate
                     facilities, Congress and the
                     Administration increased funding to
                     replace and repair Native American                                   Photo Courtesy of the Sac & Fox Tribe
                     schools. This increased funding
                     provides for about 6 replacement and                     In 1999, as a result of our audit of
                     10 major repair projects each year.                      construction grants awarded to the Lac
                                                                              Courte Oreilles Ojibwe School, the House
                            School Construction Funding
                                                                              Interior Appropriations Subcommittee
                                          Replacements    Major Repairs       expressed concern over BIA’s monitoring of
                                                                              school construction grant funds and asked
                     140                                                      BIA to develop a plan of action to
Dollars (Millions)




                     120
                     100                                                      strengthen monitoring. BIA subsequently
                      80                                                      submitted to Congress its May 1999 Plan to
                      60
                      40                                                      Ensure the Integrity of School Construction
                      20                                                      Grants.
                       0
                           1998 1999 2000 2001 2002 2003 2004
                                                         (Est.)
                                                                              We conducted this review to follow up on
                                                                              BIA’s implementation of the May 1999
                                           Year
                                                                              Plan. We concluded that while BIA, for the
                                                                              most part, has implemented the Plan and
                     BIA’s school construction program has                    used Congressionally appropriated funds to
                     proven beneficial to Native American                     replace and repair schools, it could improve
                     communities and students. Six of the                     controls over its school construction


                                                                          i
program in the areas of student safety            savings available as a result of
and program performance.                          replacement schools costing less than the
                                                  funds awarded (see Appendix 1).
Student Safety
                                                Establishing program goals and
                                                 measurable performance indicators to
No one in BIA is responsible for
                                                 assess BIA’s ability to bring projects to
ensuring that school buildings are not
                                                 completion.
occupied until BIA verifies that the
buildings meet all applicable codes and
                                                Conducting comprehensive workload
standards. Ten of the schools reviewed
                                                 analyses to determine if current staffing
were occupied before identified safety
                                                 is sufficient to monitor the school
deficiencies were corrected and the
                                                 construction program.
buildings approved for occupancy.
                                               We made nine recommendations that, if
Program Performance                            implemented, should improve BIA’s
                                               efficiency in managing its school
BIA could improve program                      construction program. In effect, improved
performance by:                                efficiencies translate into more money for
                                               school construction and better conditions for
 Applying guidance developed for              Native American students. Improved
  grants in its May 1999 Plan to               efficiencies would also help BIA balance
  construction projects awarded under          respect for tribal self-determination with its
  Public Law 93-638 contracts and              responsibility for overseeing and
  self-governance compacts. This               administering the school construction
  would help limit advance or lump-            program, for which BIA is ultimately
  sum payments that exceeded project           accountable.
  construction needs.

 Establishing a system to better
  monitor project progress and avoid
  delays in completion. Sixteen of the
  projects we reviewed exceeded
  BIA’s goal to finish design and
  construction within 3 years;
  7 projects took more than 5 years to
  complete.

 Establishing systems to reconcile
  appropriations with individual
  project obligations and determine the
  use of project savings. We identified
  $4.2 million in funds that could be
  put to better use: the $2.1 million
  difference between funds
  appropriated and awarded for two
  schools and the $2.1 million of


                                          ii
  Contents
                                                                                                                             Page

  BIA’s School Construction Program ................................................................................1
     Audit Objectives ........................................................................................................3

  School Construction Program Has Proven Beneficial but Improvements
   Needed to Ensure the Safety of Native American Students and Improve
   Program Performance ....................................................................................................4
       Benefits of Program .................................................................................................4
       Opportunities for Improvement ...............................................................................5
           Safety of Students ............................................................................................5
           Program Performance ....................................................................................7
           Conclusion ....................................................................................................13
       Recommendations .................................................................................................13

  Appendices
     1              Classification of Monetary Amounts .........................................................15
     2              Construction Projects Reviewed ................................................................16
     3              Audit Scope and Methodology ..................................................................18
     4              Implementation of May 1999 Plan Submitted to Congress.......................21
     5              Status of Audit Recommendations ............................................................24


Abbreviations
BIA................................................................................................. Bureau of Indian Affairs
BIAM ................................................................................Bureau of Indian Affairs Manual
CFR ..........................................................................................Code of Federal Regulations
DSRM ................................................................ Division of Safety and Risk Management
GAO .......................................................................................... General Accounting Office
GOTR....................................................................Grants Officer Technical Representative
GPRA.................................................................Government Performance and Results Act
OCR .................................................................................. Organizational Capacity Review
OFMC ................................................... Office of Facilities Management and Construction
OIEP........................................................................... Office of Indian Education Programs
OIG .......................................................................................... Office of Inspector General
OMB ..............................................................................Office of Management and Budget
USC.........................................................................................................United States Code




                                                                iii
BIA’s School Construction Program
Over 48,000 Native American students               BIA replaces and repairs schools under its
attend 187 BIA-operated or funded                  school construction program, which was
schools in 23 states. These facilities             established to provide safe, functional,
include day and boarding schools and               economical, and energy-efficient facilities
dormitories.                                       for Native American students.

Over the years, the poor condition of these        The school construction program consists
schools has become an issue of national            of two programs: the replacement school
concern. Several BIA and General                   construction program and the major
Accounting Office (GAO) reports have               facilities improvement and repair program.
documented decaying and unsuitable
buildings that not only impede learning,            Under the replacement school
but threaten the health and safety of Native         construction program, all or major
American students.                                   portions of schools are replaced when
                                                     repair is not economically feasible.
Improving the condition of BIA schools               Tribes and schools apply for
has been a priority of the Department of             construction funding, and BIA ranks
the Interior, Administration, and Congress.          the projects to receive available
In its fiscal year 2004 budget, the                  funding.
Administration requested about
$181 million for school replacement and             The major facilities improvement and
major repair projects.                               repair program provides funds to
                                                     correct critical health and safety
Over the past 6 years, Congress has                  hazards, such as fire safety code
appropriated $471 million for construction           violations, structurally unsound
projects to replace schools and $209                 buildings, leaking roofs, deteriorated
million to repair schools, as shown in the           interiors, unhealthy restrooms, and
following table.                                     hazardous waste. BIA selects projects
                                                     using its facilities management
                               Major                 information system.
            Replacement       Facility,
               School      Improvement
   Fiscal   Construction    and Repair
                                                   BIA identifies school replacement and
   Year       Projects        Projects             major repair projects during its budget
             (millions)      (millions)            formulation process. Congress reviews
   1998         $19.2           $13.7              the annual Administration budget request
   1999          17.4            14.1              and appropriates funds for specific
   2000          61.8            12.1              projects. Once funds are appropriated,
   2001         129.3            49.0
   2002         122.8            61.1
                                                   tribes can construct projects under Public
   2003         120.2            59.1
   Totals      $470.7          $209.1




                                               1
Law 93-638 self-determination contracts,1                  Governance is responsible for projects
Public Law 100-297 grants,2 or self-                       initiated under self-governance compacts.
governance compacts.3
                                                           OFMC project managers serve as technical
If the tribes choose not to do the work                    representatives for contracting or grants
themselves, BIA enters into either                         officers and provide technical assistance
commercial contracts or interagency                        on all construction projects, regardless of
agreements to construct the projects.                      the funding mechanism. The project
                                                           manager is key in OFMC’s ability to meet
BIA’s Office of Facilities Management                      its overall responsibility of ensuring that
and Construction (OFMC) negotiates the                     projects are completed as intended.
award of Public Law 93-638 contracts,
commercial contracts, and interagency                      As technical representatives, project
agreements4 and enforces the terms of the                  managers monitor architectural,
awards on behalf of the government.                        engineering, and construction aspects of
                                                           projects by reviewing design documents,
BIA’s Office of Indian Education                           periodically visiting construction sites, and
Programs (OIEP) awards and enforces the                    reviewing financial and progress reports.
terms of Public Law 100-297 construction
grants,5 and BIA’s Office of Self-                         Project managers also coordinate with
                                                           BIA’s Division of Safety and Risk
                                                           Management (DSRM) on safety issues and
                                                           with the tribes constructing the projects on
1                                                          taking any required corrective actions.
  Public Law 93-638, the Indian Self-
Determination and Education Assistance Act of              DSRM reviews and approves construction
1975 (25 USC 450 et seq.), allows tribes to                plans and specifications6 prior to
contract for programs and services previously              construction and performs final safety
conducted by the federal government.                       inspections upon completion of
2
  Public Law 100-297, the Tribally Controlled              construction.
Schools Act of 1988 (25 USC 2501 et seq.), allows
tribal organizations operating tribally controlled
schools to use grants rather than self-determination       Although tribes and schools are
contracts. In 1990, Public Law 101-301 amended             responsible for the construction of school
the Act to allow tribal grant schools to perform           projects via grants, contracts, or compacts,
education facility construction activities.                BIA remains accountable for the federal
3
  Public Law 103-413, the Indian Self-
Determination Act Amendments of 1994 (25 USC               funds appropriated and retains overall
458aa), authorized a self-governance program               responsibility to ensure that the projects
allowing tribes to plan, conduct, redesign, and            are completed as intended.
administer federal programs and services that best
meet their needs. Annual funding agreements                In 1999, we reported on school
between participating tribes and BIA transfer
control over funding and decision-making to the            construction grants awarded to the Lac
tribes.                                                    Courte Oreilles Ojibwe School. Our
4
  Negotiations include payment method, indirect            report concluded that School officials had
costs, equipment, property, codes and standards,
bonding, and procurement.
5
  OIEP’s Director identified eight education line
                                                           6
officers as construction grant awarding officers             Construction plans are architectural drawings of
who are responsible for construction grants at BIA-        the project; specifications are descriptions of
funded schools within defined regional areas.              specific project requirements.


                                                       2
not complied with the intended purpose of
the grants and that BIA had not adequately
monitored the use of grant funds.

As a result of our audit, the House Interior
Appropriations Subcommittee requested
BIA to develop a plan of action to
strengthen its monitoring of the school
construction grants program. In response,
BIA developed and submitted to Congress
a May 1999 Plan to Ensure the Integrity of
School Construction Grants, in which BIA
agreed to take 10 actions to improve its
oversight of federal funds appropriated for
school construction.

Audit Objectives
Our objective was to follow up on BIA’s
implementation of the May 1999 Plan. In
addition, we wanted to determine whether
(1) BIA had adequate systems in place to
ensure that funds appropriated by
Congress for replacement and repair
projects were used for their intended
purposes, (2) BIA monitored projects to
ensure completion in a timely manner, and
(3) schools were safe for students.

We reviewed the 47 school construction
projects on OFMC’s June 2002 status
report that were shown as being in the
construction stage after May 1999. These
47 projects are detailed in Appendix 2.7
The scope and methodology of our review,
including the sites visited and prior audit
reports reviewed, are detailed in
Appendix 3.




7
  Our review of the 47 projects found that 6 were
still in the design phase and 2 were completed prior
to May 1999.


                                                       3
School Construction Program Has Proven
Beneficial but Improvements Needed to Ensure
the Safety of Native American Students and
Improve Program Performance
Benefits of Program
BIA’s school construction program has
provided improved educational
opportunities and safer schools to Native
American students by replacing obsolete
and unsafe buildings with modern
facilities (see photos). Increased funding
for fiscal years 2001 to 2003 allowed for
starting about 6 replacement projects and
10 major repair projects each year. Six of             Shiprock Alternative School, New Mexico
the seven replacement school projects                                                OIG Photo
funded from fiscal year 1998 to 2000 have
been completed. In addition, 17 of 23
major facility improvement and repair
projects funded during this period were
completed.

BIA has also taken steps to improve its
school construction program by beginning
to implement the actions proposed in its
May 1999 Plan to Ensure the Integrity of                  Seba Dalkai Boarding School, Arizona
School Construction Grants, submitted to                                           OIG Photo
Congress (see Appendix 4).8
Improvements include contracting with
private firms to conduct evaluations of
grantee management systems before
awarding grants and limiting advance
payments based on the grantee’s risk
rating.




                                                        Fond du Lac Ojibwe School, Minnesota
                                                                                   OIG Photo
8
 We found that BIA has implemented or partially
implemented 9 of 10 action items included in the
Plan.


                                                   4
                                                   required by the BIA Manual. Of the
Opportunities for                                  20 schools9 we reviewed, 10 were
Improvement                                        occupied prior to DSRM approval, even
                                                   though DSRM identified safety
                                                   deficiencies that had to be corrected.10
Notwithstanding the benefits of the school
                                                   Five of the buildings were occupied before
construction program and the actions taken
                                                   DSRM issued a certificate of occupancy,11
by BIA to implement its May 1999 Plan,
                                                   two were operated by BIA, and three were
opportunities still exist for improvement.
                                                   operated by a tribal organization under a
Specifically, the actions detailed in the
                                                   Public Law 100-297 grant.
following paragraphs should assist BIA in
ensuring the safety of Native American
                                                   The unauthorized use of these buildings
students and improving the performance of
                                                   has subjected students to undue risk. For
its school construction program. Our
                                                   example:
recommendations in these areas, if
implemented, should increase the benefits
                                                    Regional safety officers, acting on
of the overall program.
                                                     DSRM’s behalf, inspected the Many
                                                     Farms High School student activity
Safety of Students.          Under 25 USC            center in June 2001 and again in
2005(a), all BIA school facilities are to be         October 2001. Among the deficiencies
brought into compliance with applicable              noted were an inoperative fire-alarm
health and safety standards and the                  system and a fire door that was
Americans with Disabilities Act (42 USC              missing a closing device. This BIA-
12101 et seq.). The BIA Manual lays out              operated facility has been in use for
requirements for ensuring the construction           over 1 year without a certificate of
of safe schools and the safety of Native             occupancy.
American students.

Key aspects of ensuring safety are BIA
Manual requirements that DSRM:                     9
                                                     Of the 47 construction projects listed on OFMC’s
                                                   June 2002 status report, we reviewed the 19 that
 Inspect newly built facilities before            were completed and ready for inspection (we also
  they are occupied to verify that they            reviewed the Riverside Indian School project
  meet applicable codes and standards              because it was occupied, although it had not yet
  (25 BIAM Supplement 18 1.5B).                    been inspected for occupancy). Fifteen of the
                                                   projects were not finished, and another 13 were
                                                   utility system renovations or installations that did
 Approve construction plans and                   not require certificates of occupancy.
  specifications before projects are               10
                                                      DSRM performed safety inspections of 8 of the
  advertised for bid (25 BIAM                      10 schools; DSRM was not asked to do a final
  Supplement 18 1.5A).                             inspection on the other two projects.
                                                   11
                                                      DSRM began issuing certificates of occupancy
                                                   in August 2000 to certify that school buildings
Schools Occupied Prior to DSRM                     were ready for use. Certificates were based on the
Approval. We were disturbed to find that           Uniform Building Code, which is a model safety
no one in BIA ensures that school                  code used by most state and local governments.
buildings are not occupied until DSRM              Five buildings were occupied before DSRM began
                                                   issuing certificates of occupancy, and DSRM did
verifies that the buildings meet all               not approve their use or follow up on the status of
applicable codes and standards, as                 the deficiencies identified.


                                               5
 The tribally operated Conehatta                  Start of Construction Before DSRM
  Elementary School was used for over a            Approval of Construction Plans and
  year and a half before DSRM issued a             Specifications. Another factor for
  certificate of occupancy in March                ensuring safety is DSRM’s approval of
  2003. A DSRM inspection in June                  construction plans and specifications
  2002 revealed numerous deficiencies              before projects are advertised for bid.12
  related to accessibility for persons with        Such assurance requires close coordination
  disabilities and the fire-alarm system.          between DSRM and OFMC project
  The inspector found missing fire-alarm           managers. Our review of 44 projects,13
  manual pull stations and was unable to           however, revealed that such coordination
  verify that the fire sprinkler system            was not always forthcoming, with the
  was built according to the BIA-                  result that safety standards were
  required standard.                               sometimes overlooked during project
                                                   construction. For example:
There appeared to be confusion on who is
responsible for enforcing safety codes.             OFMC project managers did not
The BIA Manual (25 BIAM Supplement                   request DSRM reviews for 13 projects,
18 1.1D), states that DSRM is responsible            even though such reviews are required
for enforcing BIA’s Safety and Health                by the BIA Manual.
Inspection Program, and that individual
OIEP education line officers are                    DSRM did not approve 27 of
responsible for operating schools and                31 projects before the start of
contracted programs in compliance with               construction, as required by the BIA
applicable safety and health codes and               Manual.
standards. A DSRM official stated,
however, that OIEP was responsible for             The lack of DSRM approval before
telling school officials not to move into          construction occurred primarily because of
unapproved buildings and would be liable           DSRM’s agreement with OFMC to review
in case anything happened as a result of           construction documents only once. If
unauthorized occupancy. An OIEP                    DSRM identifies deficiencies, it does not
official, on the other hand, stated DSRM           approve the documents, but provides
was responsible and that he did not know           comments on needed corrections to the
when the schools we reviewed were first            project manager. The project manager
occupied.                                          does not resubmit the documents to
                                                   DSRM for approval, but instead is to
We believe it is incumbent upon BIA to             ensure that the designer corrects the
assure that buildings are not occupied until
identified safety deficiencies are abated.
Accordingly, BIA must assign                       12
                                                      This practice is similar to the permitting process
responsibility for ensuring that buildings         used by most municipal governments in that
lacking DSRM approval are not used.                construction cannot start until the local building
BIA must also ensure that OIEP education           official issues a permit.
                                                   13
line officers and responsible BIA and                 Of the 47 construction projects on OFMC’s June
tribal school personnel are aware of the           2002 status report, six projects were still in design,
                                                   resulting in 41 projects for which construction
requirements for DSRM approval before              plans and specifications should have been reviewed
buildings are occupied.                            and approved. In addition, construction had begun
                                                   on three projects that were still in the design phase.


                                               6
deficiencies. However, because                   We believe that BIA could strengthen its
construction plans and specifications were       monitoring of construction projects
not resubmitted for approval, deficiencies       awarded under Public Law 93-638
for eight projects were not corrected, and       contracts and self-governance compacts by
DSRM found the same deficiencies in its          applying, to the extent possible, the
final safety inspections.                        standards outlined in the May 1999 Plan
                                                 for grants. For example, at the present
Program Performance.               We            time, advance payments under Public Law
believe that BIA could strengthen controls       93-638 contracts do not require any
over its school construction program by:         evaluation of management systems and are
                                                 based solely on negotiations between
 Applying the guidance in its May 1999          OFMC and the tribes. We believe that an
  Plan to projects constructed under             evaluation of these management systems,
  Public Law 93-638 self-determination           similar in nature to the Organizational
  contracts and self-governance                  Capacity Reviews (OCR)14 used for Public
  compacts.                                      Law 100-297 grants, would prove
                                                 beneficial in negotiating the amount of
 Fully adhering to guidance in the May          advance payments under contracts and
  1999 Plan on advances under Public             compacts.
  Law 100-297 grants.
                                                 We noted that the entire construction
 Establishing systems or policies to            phase contract amount was advanced in
  monitor construction projects, track           one lump-sum payment in four of the
  appropriations, and address project            seven Public Law 93-638 contracts
  savings.                                       reviewed. These advances were made
                                                 without any evaluation of tribal
 Setting program goals and measurable           management systems and were far in
  performance indicators.                        excess of current needs, as follows:

 Reviewing staffing levels.                      The Navajo Nation received about
                                                   $12.8 million for the Many Farms
Applying Guidance in May 1999 Plan to              High School project in February 1999
Contracts and Compacts. The actions                although construction did not begin
outlined in the May 1999 Plan have                 until September 1999, and construction
improved BIA’s ability to effectively              was not completed until October 2001.
monitor school construction projects               The Nation also received about
awarded under Public Law 100-297                   $37.2 million for the Tuba City
grants. For example, the Plan requires             Boarding School project in January
that BIA evaluate grantee management               2002 even though construction was
systems prior to grant award, limit                still ongoing as of February 2003.
advance payments based on the risk rating
assigned to the grantee, and inform the
grantee of conditions that could lead to
suspension or termination of the grant.
                                                 14
                                                  An OCR is an evaluation of financial
                                                 management, procurement, personnel, and property
                                                 management systems.


                                             7
 The Lower Brule Sioux Tribe received                                    Funds          Total
  about $2.4 million in November 1998                                    Advanced       Grant
                                                                         (millions)    (millions)
  for the construction portion of the                    Santa Fe
  Lower Brule Elementary School                          Indian School
  project. However, as of January 2003,                  (Phase I)         $17.4         $23.2
  the design phase of the project had not                Second Mesa
  yet been completed.                                    Day School         14.6          19.8
                                                         Shiprock
                                                         Alternative
 The Hopi Tribe received about                          School             13.0          26.1
  $18.8 million for the Polacca Day
  School project in April 2002 even                     We also found that the $5 million cap had
  though construction had not yet                       been removed from BIA’s grant handbook
  commenced at the completion of our                    Implementation of P.L. 100-297
  fieldwork.                                            Construction Grants Exceeding $100,000
                                                        when the handbook was amended in April
While lump-sum payments are allowed by                  2001. We believe that BIA should either
Public Law 93-638, we did not find any                  comply with the $5 million cap or notify
records in the project files of negotiations            Congress of the basis for this change.
or justifications as to exactly why these
amounts were advanced. In our opinion,                  Establishing Systems or Policies. BIA
providing lump-sum advances leaves                      lacked systems or policies to
OFMC with little leverage in obtaining                  (1) effectively monitor construction
delinquent performance or financial                     projects and address delays, (2) reconcile
reports required by the contract. Further,              appropriations with individual project
lump-sum advances can pose an inherent                  obligations, and (3) determine the use of
risk of loss or unauthorized use.                       project savings.
Fully Adhering to Guidance in May                       We identified $4.2 million in funds that
1999 Plan. The May 1999 Plan limits the                 could be put to better use: the $2.1 million
amount of funds that can be advanced to a               difference between funds appropriated and
maximum of 75 percent of the award                      awarded for two schools and the
amount or $5 million, whichever is less.15              $2.1 million difference between funds
In our review of six Public Law 100-297                 awarded and spent for two schools (see
grants, however, we found that BIA did                  Appendix 1).
not adhere to the $5 million cap for
advance payments in three grant                             Monitoring Construction Projects.
agreements, as follows:                                 BIA did not have a system to track project
                                                        progress and therefore could not
                                                        effectively monitor the status of
                                                        construction projects and address delays in
                                                        project completion, specifically delays in
                                                        reviewing and approving design
15
  This percentage is based on the results of an         documents. Of the 47 construction
OCR. Grantees with low risk ratings can receive a
75 percent advance payment, while grantees with
higher risk ratings receive smaller advance
payments.


                                                    8
projects we reviewed, 16 projects,16 or                                                   Estimated
about 30 percent, exceeded BIA’s goal to                      Stages of Design          Percent Design
                                                                                         Is Complete
finish design and construction within                      Schematic                          20
3 years. (Information on the individual                    Design Development                 40
projects reviewed is presented in                          Preliminary
Appendix 2.)                                               Construction Plans &
                                                           Specifications                       70
The Chief of OFMC’s Program, Planning                      Completed
                                                           Construction Plans &
and Implementation Division                                Specifications                       99*
acknowledged the problem and told us that                  Final Construction
he was considering establishing a system                   Plans &
to “log in” design documents upon receipt                  Specifications                 100*
and track the status of each project. He                  *DSRM also reviews and approves designs at
                                                          either the 99 or 100 percent stage.
also stated that he was reviewing the
current staffing and the number of ongoing                We found, for example, that design work
projects.                                                 for the Sac & Fox K-8 School project was
                                                          begun in 1993, but was not completed
Most of the delays identified in project                  until 1999. The Sac & Fox Tribe’s
completion occurred during the design                     architect and engineering firm told us that
phase. Under BIA’s 3-year project                         OFMC delays in reviewing and approving
completion goal, design is to be completed                designs were a significant problem in
within 1 year. For 19 of the projects                     completing the project.
reviewed, however, the design phase
ranged from 1-l/2 to 7 years.                             Tribal officials and a tribal representative
                                                          involved with the Many Farms High
OFMC project managers review and                          School project expressed similar concerns,
approve designs submitted by architect                    stating that OFMC’s review and approval
and engineering firms at several stages                   of each design submittal for the Many
during project development, as follows:                   Farms High School took from 6 to 12
                                                          months, while private architectural firm
                                                          reviews averaged 30 days.

                                                          DSRM also did not always perform its
                                                          design reviews in a timely manner.
                                                          DSRM estimated it should complete the
                                                          construction plans and specification
                                                          reviews within 15 working days. Based
                                                          on our review, however, we found that 13
                                                          of 31 plans reviewed were not finished
                                                          within this time frame. For example,
16
                                                          review of the Zia Day School construction
   Of the 16 projects, 13 were completed, and             plans and specifications took over
3 were in the design phase. For the 13 projects,
completion times ranged from about 3½ years to a
                                                          2 months.
little over 9 years, with 7 projects having a total
elapsed completion time of more than 5 years. The         We believe that the lack of a system to
three projects in the design phase had been in            track project progress is a serious
progress from about 3 ½ years to 5 ½ years.


                                                      9
impediment in ensuring project                              Contract/              (millions)
performance and agree with OFMC’s                             Grant      Approp.   Award Difference
Chief of Program, Planning and                             Sac & Fox
                                                           School         $10.3      $ 9.6      $ .7
Implementation that such a system should                   Zia Day
be established.                                            School            9.0       7.6        1.4
                                                           Tuba City
To meet its oversight responsibilities and                 Boarding
accountability for the overall school                      School          38.5       37.2        1.3
                                                           Polacca
construction program, BIA should use this                  Day School      19.9       18.8        1.1
system to report to Congress on the                        Seba Dalkai
reasons for delays in project completion                   School          20.5       20.1        .4
and provide options for resolution. We                     Total                                $4.9
acknowledge that there are factors, such as
tribal bureaucracy, delays in choice of                    Both the Sac & Fox and Zia projects were
location, and timely appropriations,                       completed within the awarded amounts.
outside of BIA’s ability to ensure project                 OFMC’s Budget Officer told us that he
completion. We believe, however, that                      was not aware of the differences between
BIA, in keeping with its accountability for                the amounts appropriated and the amounts
federal funds, should report these factors                 awarded for these two projects. The
to Congress.                                               differences for the Tuba City, Polacca, and
                                                           Seba Dalkai projects were primarily the
    Reconciling Appropriations. Of                         result of OFMC retaining 50 percent of the
11 replacement school construction                         estimated contingency funds. However,
projects reviewed, we identified about                     OFMC budget records did not account for
$4.9 million of appropriated funds that                    these differences.
were still available for expenditure.
OFMC budget officials, however, did not                    We believe the appropriated funds
know these funds were available because                    remaining from the Sac & Fox and the Zia
they did not reconcile project                             projects should have been formally
appropriations with individual project                     reprogrammed18 for use on other school
obligations.17 The $4.9 million comprised                  construction projects in BIA’s budget
the following replacement school projects:                 justifications.

                                                           We also identified an instance in which
                                                           OFMC awarded funds for a school
                                                           construction project that was not included
                                                           in BIA’s budget justifications. OFMC
                                                           awarded two Public Law 93-638 contracts


                                                           18
                                                             Under appropriation law, construction funds
                                                           remain available until expended. BIA policy
17
  An appropriation is an authorization by an act of        requires that unused project funds be
Congress that permits federal agencies to incur            reprogrammed for other uses. BIA can internally
obligations and to make payments out of the U.S.           reprogram funds up to $500,000, but must notify
Treasury for specified purposes. Obligations               the House and Senate Committees on
represent orders placed for goods or services,             Appropriations of the proposed reprogramming if
contracts awarded, and similar transactions.               funds exceed $500,000.


                                                      10
totaling about $2.8 million to the Turtle                   the Pueblo had not agreed on the use
Mountain Band of Chippewa Indians to                        of the savings.
pay for the design and construction of a
structural repair project at the Dunseith                 The Office of Self-Governance
School. OFMC officials told us that the                    awarded the Fond du Lac Band of
repair project was an emergency and that                   Lake Superior Chippewa $14.3 million
funding had to be obtained from any                        for a replacement school under the
available source.19 Although we recognize                  Band’s fiscal year 2000 funding
the need for emergency funding, OFMC                       agreement. The Band spent $13.7
officials did not obtain reprogramming                     million for construction, resulting in
authority or Congressional approval for                    project savings of about $600,000.
the use of school construction funds or                    The school was completed in January
document what projects in the budget                       2002. A Band official told us that the
justifications were not funded when the                    Band had informally agreed with BIA
$2.8 million was diverted to the Turtle                    on the use of about half of the savings
Mountain Band.                                             and would find ways to spend the
                                                           remaining savings.
    Using Project Savings. BIA does not
have a policy for using excess project                   Under 25 USC 450e-2, the Secretary of
funds or “savings.” We identified about                  the Interior, after consultation with the
$2.1 million of savings that remained                    tribes, determines the use of excess funds.
available as a result of replacement                     OFMC’s Budget Officer told us that the
schools costing less than the funds                      first time savings had occurred was on the
awarded. Although the two schools have                   Zia Day School project and that OFMC
been completed for more than a year,                     had not established any formal policies or
OFMC and the Tribes have not agreed on                   procedures to address project savings.
the use of the money, as follows:
                                                         We believe BIA should establish a policy
 In December 2000, OFMC awarded                         on how long project savings should be
  the Pueblo of Zia a $7.6 million                       allowed to remain with the tribes. Savings
  contract to construct a replacement                    become subject to risk of not being used
  school. The Pueblo spent about                         for project purposes the longer they are
  $6.1 million, resulting in project                     held by the tribes. A reasonable time
  savings of about $1.5 million. The                     frame, such as 1 year from the date of the
  school was completed in July 2002. In                  certificate of occupancy, should be
  December 2002, OFMC requested that                     established to allow the contracting or
  the Pueblo resolve how the                             grants officers to consult with the tribes on
  $1.5 million of project savings would                  how to use the savings for project
  be used. As of April 2003, OFMC and                    purposes. If the savings are not used
                                                         within this time frame, BIA should issue
                                                         bills for collection, with the savings being
                                                         returned for use on other school
19
                                                         replacement or repair projects.
  The design and construction contracts indicated
that the project was funded with replacement
school construction funds ($2,349,000); facility,
improvement and repair funds ($265,000); and
advance planning and design funds ($235,000).


                                                    11
Setting Program Goals and Measurable                      increments to be achieved in compliance
Performance Indicators. BIA has not                       with the operating plan. We believe the
established annual performance goals for                  number of replacement and major repair
its school construction program against                   projects to be completed each year should
which actual achievement can be                           be included as one of the increments to be
compared. The two goals for the program                   achieved.
in BIA’s fiscal year 2003 performance
plan do not measure outcomes, such as the                 Reviewing Staffing Levels. OFMC and
number of projects completed, but rather                  DSRM officials stated that present staffing
address only the initiation of projects.                  levels were insufficient to effectively
                                                          monitor performance of the school
To comply with the Government                             construction program. We noted that from
Performance and Results Act (GPRA),20                     fiscal years 1998 to 2003, program
agencies must establish objectives with                   funding increased about 445 percent.
measurable performance indicators of                      During that same period, however, OFMC
program results and report annually on                    funding to manage the program increased
how well these goals are met.21 According                 only about 10 percent, and DSRM funding
to Office of Management and Budget                        increased only about 13 percent.
(OMB) Circular A-11, performance goals
can be measured either by outcome (a                      The former chief of OFMC’s Division of
description of the intended result occurring              Program, Planning and Implementation
from a program activity) or by output (a                  told us that because of the lack of staff,
description of the level of activity that will            OFMC had entered into interagency
be produced over a period of time). In our                agreements with other federal agencies to
opinion, BIA’s performance goals do not                   perform the project design and/or
comply with OMB Circular A-11.                            construction functions. He also told us,
                                                          however, that these agreements only
In conjunction with the Department’s draft                marginally lessened the involvement and
strategic plan for fiscal years 2003 to                   workload of the project managers.
2008, BIA has recognized the need for
better performance measures. BIA plans                    The DSRM chief told us that staffing was
to request assistance from an outside                     the primary reason why DSRM reviewed
contractor in developing a long-term                      construction documents only once. Since
operating plan and the framework for an                   fiscal year 1999, DSRM has requested, but
annual plan that will include individual                  not received, additional funding for two
                                                          new plan review specialist positions to
                                                          help address its increased workload. In
20
                                                          December 2002, DSRM proposed to
  5 USC 306 and 31 USC 1115 & 1116.                       OFMC a “permitting” process that would
21
  According to a February 24, 2003 Federal
Register notice, the Department of the Interior’s         give DSRM the funding needed to contract
draft 2004 strategic plan for fiscal years 2003 to        out design reviews. These costs would be
2008 will stand as the GPRA document for the              charged to OFMC in accordance with a
entire Department. The plan will not include goals        proposed building permit fee schedule.
and measures for every aspect of every program.           OFMC has not agreed to this proposal.
Rather, annual or long-term operating plans or
specific field planning documents for individual
bureaus should contain greater specificity for
discrete program elements.


                                                     12
DSRM reviews may take even longer in                into more money for school construction
the future. A December 2002 meeting                 projects and a better learning environment
record indicated that the backlog of design         for Native American students. The
documents to be reviewed was 3 to 4                 improvements would also assist BIA in
weeks. In the document, the DSRM chief              balancing respect for tribal self-
warned that future reviews may take as              determination with its own responsibilities
long as 3 to 4 months to complete because           in overseeing and administering the school
of staffing shortages.                              construction program, for which it is
                                                    ultimately accountable.
While OFMC and DSRM funding has not
kept pace with the school construction
program, we do not know whether current
                                                    Recommendations
staffing is appropriate to meet workload
demands without comprehensive workload              We recommend that BIA:
analyses.
                                                       1. Fully implement the May 1999
Conclusion.        Although tribes and              “Plan to Ensure the Integrity of School
schools are typically responsible for the           Construction Grants.”
construction of school projects via grants
or contracts, BIA retains overall                       2. Ensure that BIA safety
responsibility to ensure that the projects          requirements are followed, including
are completed as intended, while at the             approval of construction plans and
same time honoring tribal preferences to            specifications prior to construction and
the greatest extent feasible.                       final inspection and certification before
                                                    new buildings are occupied. This should
The necessity of striking this balance was          include assigning responsibility to ensure
underscored in 1999 by the Assistant                that buildings are not occupied before
Secretary for Indian Affairs. The                   safety deficiencies are corrected.
Assistant Secretary stated:
                                                        3. Apply, as applicable, the guidance
   Somehow we have to get ourselves                 in the May 1999 Plan to projects
   back in a proper course, where there is a        constructed under Public Law 93-638
   proper respect both for the prerogatives         contracts and self-governance compacts;
   of the Tribe, which I believe in very            for example, requiring that tribal or school
   deeply, but also for the fact we are             management systems be evaluated before
   accountable for public money.                    negotiating payment advances.

We believe that making the improvements                 4. Adhere to the May 1999 Plan
discussed in this report would significantly        submitted to Congress and require that the
improve BIA’s management of its school              $5 million advance payment limitation be
construction program. Given the                     followed or advise the House
increased funding and attention on the              Appropriations Committee of the basis for
program by the Department,                          the payment cap removal.
Administration, and Congress, these
improvements are critical in achieving                  5. Implement a project tracking
effective program results. In our opinion,          system to summarize milestone progress
improved program efficiencies translate             and allow for project monitoring from start


                                               13
to completion to meet BIA’s 3-year goal.
This should incorporate detailed reporting
to Congress on all projects experiencing
major delays.

    6. Maintain subsidiary records of
available construction funding on a
project-by-project basis to identify unused
appropriated funds, adhere to BIA
reprogramming policy for the use of these
funds (including the Sac & Fox, Zia Day,
and Dunseith Schools), and expand the
policy to specify that the funds should be
used for school construction projects
identified in the budget justifications.

    7. Develop a policy that establishes
time frames for consulting with tribes and
determining how project savings are to be
used.

    8. Establish performance goals for the
school construction program to measure
the number of replacement and major
repair projects to be completed each year.

    9. Conduct comprehensive workload
analyses to determine OFMC and DSRM
staffing needed to effectively manage the
school construction program.




                                              14
                                                               Appendix 1
              Classification of Monetary Amounts
                                                      Funds To Be Put to
                   Finding Areas                      Better Use (Millions)
Reconciling Appropriations                                    $2.1
   Difference Between Amount Appropriated and
   Contract/Grant Amounts awarded for construction
   of Sac & Fox and Zia Day Schools

Project Savings                                                2.1
   Difference Between Amount Awarded and Spent
   for Construction of the Pueblo of Zia Day School
   and the Fond du Lac Band of Lake Superior
   Chippewa School.                                           $4.2




                                          15
 Appendix 2
 Construction Projects Reviewed
                                                                                                     Total
                                                        Elapsed                           Elapsed   Elapsed
                             Start of      Design       Time 1    Start of   Construction Time 1    Time 1
     School Project          Design      Completion     (years) Construction Completion 2 (years)   (years)


                                        Replacement School Construction
1. Chief Leschi              Jun-93         Jun-95        2.1      May-95       Nov-96       1.5      3.4
2. Conehatta Elementary
School                        Jan-97        Jul-00        3.6      Dec-00       Jul-01       0.5      4.5
3. Fond du Lac               Jun-96         Jan-00        3.6      Oct-00       Jan-02       1.3      5.6
4. Fort Wingate Phase II 3   Dec-02       In Progress     0.2      Dec-02     In Progress    0.1      0.2
5. Many Farms                Oct-95          Jul-98       2.8      Sep-99       Oct-01       2.0      6.0
6. Paschal Sherman 3         Jan-02       In Progress     1.1      Jan-02     In Progress    1.1      1.1
7. Polacca Day School 3      Mar-02         Feb-03        1.0       N/A 4       N/A 4       N/A 4     1.0
8. Pyramid Lake              Jan-99         Aug-99        0.6      Sep-99       Sep-00       1.0      1.7
9. Sac & Fox                 Apr-93         Jun-99        6.2      Oct-99        Jul-01      1.8      8.3
10. Santa Fe Phase I 3       Sep-01       In Progress     1.4      Nov-02     In Progress    0.3      1.4
11. Seba Dalkai              Aug-97         Jun-98        0.8      Sep-00       Jan-03       2.4      5.5
12. Second Mesa Day
School                       Sep-97       In Progress     5.5      N/A 4         N/A 4      N/A 4     5.5
13. Shiprock Alternative     Oct-98         Sep-99        0.9      Jul-00       Aug-02       2.1      3.8
14. Tuba City Boarding
School                       Jun-00        Oct-02         2.3      Nov-01     In Progress    1.3      2.7
15. WaHeLut                  Jan-97        May-97         0.3      Jun-97       Dec-97       0.5      0.9
16. Zia Day School           Sep-98        Dec-00         2.3      Dec-00        Jul-02      1.5      3.8


                                  Major Facility Improvement and Repair
17. Busby Gymnasium          Jan-00        Dec-00         0.9      May-01     In Progress    1.7      3.1
18. Carter Seminary-Fire     Feb-01        Dec-02         1.8      Oct-02     In Progress    0.4      2.0
19. Chinle Boarding
School                       May-00        Jul-02         2.2      N/A 4        N/A 4       N/A 4     2.8
20. Chitimacha Addition      Aug-99        Mar-00         0.6      Jul-00       Apr-02       1.8      2.7
21. Choctaw High School       N/A 4        N/A 4         N/A 4     Feb-00       Dec-00       0.8      0.8
22. Eufauta-HVAC             Jun-97         Apr-99        1.8      Jun-99       Aug-00       1.2      3.2
23. Greasewood-
Gymnasium                    Apr-95         Jun-98        3.2      Mar-99       Jan-00       0.8      4.8
24. Haskell University       Feb-95         Jul-96        1.4      Jul-98       Aug-99       1.1      4.5
25. Hopi High School
Addition                     Aug-00        Aug-01         1.0      Sep-01     In Progress    1.5      2.5
26. Huerfano Dormitory
Buildings                    Aug-99        Sep-00         1.1      Jun-01       Oct-02       1.3      3.2
27. Hunters Point-Gasline    Feb-98        Oct-98         0.7      Sep-00       Nov-00       0.2      2.8
28. Indian Island-Heating    Jun-99        Jul-99         0.1      Jul-99       Feb-01       1.5      1.7
29. Indian Township          Dec-99        May-00         0.4      May-00       Jan-01       0.7      1.1
30. Jones Academy            Aug-96        Jan-98         1.5      Jul-98       Aug-99       1.1      3.0
31. Jones Reno Boys
Dormitory                    Nov-97        May-99         1.5      Jun-99       Aug-00       1.2      2.8
33. Lower Brule
Elementary School            Jun-98       In Progress     4.7       N/A 4       N/A 4       N/A 4     4.7




                                                         16
                                                                                                    Total
                                                      Elapsed                           Elapsed    Elapsed
                             Start of     Design      Time 1    Start of   Construction Time 1     Time 1
     School Project          Design     Completion    (years) Construction Completion 2 (years)    (years)
32. Kayenta Boarding
School                       Sep-99     In Progress     3.5      Sep-01     In Progress    1.5       3.5
33. Lower Brule
Elementary School            Jun-98     In Progress     4.7       N/A 4       N/A 4       N/A 4      4.7
34. Many Farms High
School-Gasline               Apr-98       Oct-98        0.5      Jul-99       Jun-01       1.9       3.2
35. Muckleshoot              N/A 4        N/A 4        N/A 4     Apr-00       Nov-00       0.6       0.6
36. Quileute-Gymnasium 3     Jul-00       Jul-01        1.0      Jun-01       Mar-02       0.7       1.7
37. Riverside-Gymnasium      Jan-01       Jul-01        0.4      Jul-01     In Progress    1.6       2.1
38. Sanostee Tk Farm         Feb-98       Jul-98        0.4      Sep-99       Dec-99       0.2       1.8
39. Santa Clara-
Gymnasium                    Dec-91       Dec-97        6.0      May-98       Aug-00       2.3       8.7
40. Santa Fe Math, Science
& Tech Building 3            Jun-98       Jul-99        1.0      May-99       Aug-00       1.2       2.1
41. Santa Fe-Sprinkler
System                        N/A 4       N/A 4        N/A 4     Jun-00       Sep-00       0.3       0.3
42. Sequoya Dormitories      Jun-97       Apr-99        1.8      Jun-99       Aug-00       1.2       3.2
43. Sherman Indian High
School-ADA                    Jan-92      Dec-98        6.9      Mar-00       Apr-01       1.0       9.3
44. Sherman Indian High
School-Safety                Jan-92       Dec-98        6.9      Mar-00       Apr-01       1.0       9.3
45. SIPI Code Compliance     Aug-01       Oct-01        0.2      Sep-01     In Progress    1.5       1.5
46. SIPI Technology
Building                     Jun-00       Aug-01        1.2      Feb-02     In Progress    1.0       2.7
47. Tiospa Zina Phase II     Sep-00       Aug-02        1.9      Feb-01       Sept-02      1.6       2.0

 1
  Used February 2003 as the date to calculate elapsed time for projects for which design and/or
 construction phases were not completed.
 2
  Includes projects determined to be substantially complete based on most current documentation,
 such as final safety inspections or certificates of occupancy.
 3
  Design-build school construction projects, where a contractor or entity is responsible for both design
 and construction under one prime contract.
 4
  Not applicable because construction contract was either not awarded or the design was (a) not
 completed or necessary, (b) funded by other means, or (c) done by tribe.




                                                       17
Appendix 3
Audit Scope and Methodology
                                                  We also reviewed internal controls over
Government Auditing                               the school construction program and found
Standards                                         weaknesses in the controls over ensuring
                                                  student safety and project performance.
We conducted our review, as applicable,           These weaknesses are discussed in the
in accordance with the Government                 body of the report. If implemented, our
Auditing Standards, issued by the                 recommendations should improve internal
Comptroller General of the United States.         controls in these areas.
Accordingly, we included such tests of
records and other auditing procedures             Scope and Methodology
considered necessary under the
circumstances.                                    To accomplish our objectives, we
                                                  reviewed various documents applicable to
As part of our review, we reviewed the            the BIA school construction program,
Department of the Interior’s Reports on           including
Accountability for fiscal years 1998
through 2002, which included information           Pertinent legislation and annual budget
required by the Federal Manager’s                   justifications;
Financial Integrity Act, and the BIA
annual assurance statements on                     Policies and procedures, including the
management controls for fiscal years 1998           Code of Federal Regulations, BIA
through 2002. Based on that review, we              Manual, the May 1999 Plan submitted to
                                                    Congress, and BIA’s Grants Handbook;
determined that none of the weaknesses
reported by the Department were within             OFMC and OIEP records, including
the objectives and scope of our review.             project status reports, financial reports,
                                                    contracts, grants, and other agreements;
We did determine that the BIA annual
assurance statements for fiscal years 1999         DSRM records, including the logs
and 2000 identified the facilities                  showing the dates of the final design
management program as a “material                   reviews and final safety inspections.
weakness.” Specifically, BIA reported
that the lack of proper maintenance and           We interviewed responsible program
repair had created health and safety              officials from BIA Headquarters and
hazards in schools and other facilities.          OFMC, OIEP, DSRM, and field offices.
The annual assurance statement for fiscal         We also interviewed tribal and school
year 2001 stated that BIA had completed           project managers and accounting staffs,
all corrective actions and had therefore          and representatives of the architect and
resolved the facilities management                engineering firms and construction
program weakness.                                 management companies. We conducted
                                                  our review between June 2002 and April
                                                  2003.


                                             18
The scope of our audit primarily included           public schools; (2) BIA school facilities
BIA replacement school construction                 were in worse shape than public schools as
projects and major facility improvement             school administrators at more than
and repair projects that, according to              60 percent of responding BIA schools
OFMC’s June 2002 status report, were in             reported having at least one building in
the construction stage.                             inadequate condition compared with about
                                                    25 percent of responding public school
Prior Audit Coverage                                administrators surveyed by the
                                                    Department of Education; and (3) the
                                                    estimated per-pupil expenditures for BIA
We reviewed the following prior audit
                                                    schools varied widely by school type (for
coverage of the BIA school construction
                                                    example, day or boarding), but were
program and related activities issued in the
                                                    generally higher than for public schools
past 5 years.
                                                    nationally. The report did not contain any
                                                    recommendations.
December 2001
Maintaining the Department of the
                                                    March 2001
Interior’s Facilities, A Framework for
                                                    Construction Costs for Chief Leschi
Action (No. 2002-I-0008). This OIG
                                                    School - Puyallup Tribe, Puyallup,
advisory report highlighted the critical
                                                    Washington – Bureau of Indian Affairs
short-term and long-term actions that the
                                                    (No. 01-I-237). The OIG advisory report
Department of the Interior needed to take
                                                    stated that although the Tribe constructed
to reduce the deferred maintenance
                                                    the School within the $28.9 million of
backlog and develop a comprehensive,
                                                    contract and grant monies received, the
proactive and reliable facilities
                                                    facility differed from the BIA planning
maintenance management program. These
                                                    document for the School. The School was
actions included appointing a
                                                    larger than specified, which resulted in
Departmental Chief Maintenance Officer,
                                                    additional construction costs of about
exploring the establishment of a single
                                                    $666,000, and the School did not build the
maintenance budget, conducting condition
                                                    athletic fields provided for in the plans,
assessments, establishing performance
                                                    which required the School to rent athletic
measures, and implementing an integrated
                                                    facilities at a cost of about $10,000 a year.
facilities management system. The report
                                                    The report also stated that BIA did not
did not contain any recommendations.
                                                    remove the old school buildings from its
                                                    data base, which resulted in BIA
September 2001
                                                    overpaying the Tribe’s school board by
BIA and DOD Schools – Student
                                                    about $785,000 to maintain the old
Achievement and Other Characteristics
                                                    buildings. BIA agreed with the report’s
Often Differ from Public Schools
                                                    two recommendations to provide more
(No. GAO-01-934). This GAO report
                                                    effective monitoring of school
addressed the academic achievement of
                                                    construction and to recover the erroneous
BIA students, the condition of BIA school
                                                    payments.
facilities, and the estimated per-pupil
expenditures for BIA schools. The report
concluded that (1) the academic
achievement of many BIA students was
far below the performance of students in


                                               19
March 1999                                         Sites Visited
Bureau of Indian Affairs Funds Provided
to the Lac Courte Oreilles Ojibwe School
                                                   We visited BIA’s OFMC, OIEP, and
for the Construction of School Facilities
                                                   DSRM offices; three field education
and the Leasing of Temporary Space (No.
                                                   offices; and nine tribes or schools
99-I-363). The OIG report concluded that
                                                   judgmentally selected, as follows:
School officials had not complied with the
intended purpose of the grants to construct             Sites Visited               Location
a facility to replace unsafe portable
classrooms or to lease temporary school                                 Offices
space to house the displaced students.              DSRM                      Albuquerque, New
Specifically, former School officials                                         Mexico
constructed a 41,358-square-foot building           OFMC                      Albuquerque, New
                                                                              Mexico
that was not completed rather than the
                                                    OIEP                      Albuquerque, New
17,359-square-foot addition to the School,                                    Mexico
which had been authorized by BIA; used              Minneapolis Field         Ft. Snelling,
operation and maintenance funds that had            Education Office          Minnesota
been provided for leasing temporary space           Oklahoma Field            Oklahoma City,
to construct another 8,500-square-foot              Education Office          Oklahoma
                                                    Shiprock Field            Shiprock, New
school building; loaned grant funds to a            Education Office          Mexico
retail operation; and awarded the contract
to construct the 41,358-square-foot                                Tribes/Schools
building without complying with federal             Chickasaw Nation          Ada, Oklahoma
regulations to ensure the lowest cost. The          Fond du Lac Ojibwe        Cloquet, Minnesota
report also concluded that BIA had not              School
adequately monitored the use of the grant           Lac Courte Oreilles       Hayward, Wisconsin
                                                    Ojibwe School
funds to ensure that they were used only            Many Farms High           Many Farms,
for intended purposes. The report’s four            School                    Arizona
recommendations were implemented. We                Sac & Fox Settlement      Tama, Iowa
visited the School during this review and           School
found that the 41,358-square-foot building          Santa Fe Indian School    Santa Fe, New
                                                                              Mexico
had been completed with Tribal funds.
                                                    Seba Dalkai Boarding      Seba Dalkai,
                                                    School                    Arizona
                                                    Shiprock Alternative      Shiprock, New
                                                    School                    Mexico
                                                    Zia Day School            Zia Pueblo, New
                                                                              Mexico




                                              20
                                                                                       Appendix 4
                   Implementation of May 1999 Plan
                            Submitted to Congress
As a result of our 1999 audit of school construction grants awarded to the Lac Courte
Oreilles Ojibwe School (see “Prior Audit Coverage,” Appendix 3), Congress (the House
Interior Appropriations Subcommittee and Congressman David Obey) expressed concern
that BIA’s monitoring efforts were not assuring that school construction grant funds were
being spent for their intended purposes. Congress asked BIA to develop a plan of action to
strengthen its monitoring of the school construction grants program. In response, BIA
developed and submitted to Congress a May 1999 Plan to Ensure the Integrity of School
Construction Grants, in which BIA agreed to take 10 actions. As shown in the following
schedule, we found that BIA has implemented four of its proposed actions, partially
implemented five, and not implemented one.

            Proposed BIA Actions                             Office of Inspector General Tests

1. Ensure that grantees have appropriate                Implemented. OFMC and OIEP jointly
management systems. BIA will notify                     developed a grants handbook describing the
potential grantees of project funding and indicate      construction grant process and discussing grantee
that submission of a grant application requires the     management systems. All five of the grantees
applicant to undergo a review of its financial          reviewed received notification letters concerning
management, procurement, personnel, and property        project funding. Four of the five grantees received
management systems.                                     letters discussing the need for OCRs. Santa Fe
                                                        Indian School did not receive this letter because the
                                                        Math, Science, and Technology grant was awarded
                                                        before the grants handbook was issued.

2. Third party review of grantee’s                      Implemented. OFMC contracted with certified
systems. BIA will contract with a private sector        public accounting firms to conduct OCRs of grantee
firm to conduct systems certifications to ensure that   management systems prior to grant award. OCRs
the appropriate systems are in place prior to           were conducted for four of the five grants reviewed.
awarding a construction grant.                          An OCR was not conducted for the Santa Fe Indian
                                                        School Math, Science, and Technology project
                                                        because the grant was awarded prior to issuance of
                                                        the grants handbook.

3. Establish special conditions and                     Partially Implemented. As a result of the
payment schedules based on grantee                      OCRs, the four grantees reviewed received risk
rating. The assessment of the applicant’s systems       ratings, and advance payment schedules for three
and internal control procedures will be used to         grantees were based on the risk rating. The advance
establish a risk rating: low, moderate, or high risk.   payment schedule for the Santa Fe Indian School
BIA will require additional reporting from and          (Phase I) project was not based entirely on the OCR
provide increased oversight of those grantees           rating. The School received a moderate risk rating,
classified as either moderate or high risk. Payments    yet the advance payment schedule was negotiated
under the award will be subject to greater controls     based on a low risk rating, resulting in the School
for moderate and high risk grantees.                    receiving a larger advance payment than it should
                                                        have under the May 1999 Plan.



                                                        21
            Proposed BIA Actions                               Office of Inspector General Tests

4. Identify tribal management as an                       Implemented. The option of tribal management
option. If a school board’s systems are so                was included in the grants handbook. However, we
deficient that they cannot be certified, it is possible   did not identify any situations where a school
that the tribal government’s systems will meet the        board’s systems were so deficient that the grantee
federal standards identified in the regulations. In       failed the OCR. As such, the tribes did not have to
such a case, BIA will recommend that the tribe            manage any of the projects on behalf of the schools.
submit the grant application and manage the project
on behalf of the school.

5. Conditions that may lead to suspension                 Not Implemented. The grants handbook stated
or termination. A provision will be included in           that BIA would initiate enforcement actions (per 43
the grant awards notifying the grantee that BIA may       CFR Part 12.83) against grantees failing to comply
suspend or terminate the grant for material non-          with provisions of the grants.
compliance with the terms of the award, including
the failure to submit required financial and              Four of the five grants reviewed included language
construction progress reports or to comply with the       that the grants would be administered in accordance
approved scope of the project.                            with the applicable financial reporting and audit
                                                          requirements of 43 CFR Part 12. However, none of
                                                          the grant awards contained specific provisions
                                                          describing the conditions under which BIA could
                                                          suspend or terminate the grants.

6. Provide the grantee with standard                      Partially Implemented. OFMC officials told
procurement contract provisions. BIA will                 us that grantees must use the American Institute of
supply the grantee with the standard contract             Architect’s Federal Supplemental Conditions of the
clauses that are to be contained in construction          Contract for Construction unless the grant provided
contracts awarded by the grantee.                         equivalent clauses. OFMC has developed standard
                                                          contract clauses to be included in construction
                                                          contracts awarded by grantees and has submitted
                                                          these clauses to the Southwest Regional Solicitor’s
                                                          Office for legal review.

7. Review of solicitation documents and                   Partially Implemented. Four of the five grants
site visits to verify project scope. Grantees             reviewed required grantees to comply with
will be required to provide a copy of all solicitation    procurement requirements in 43 CFR Part 12.76.
documents for any construction procurement of             Part 12.76(g) requires grantees to provide BIA with
$100,000 or more. Grant documents will provide            solicitation documents; however, only the grant for
for two site visits by the grants officer and grants      Shiprock Alternative Schools, Inc., actually
officer’s technical representative (GOTR) for             included specific language requiring the grantee to
projects costing from $100,000 to $500,000 and for        provide copies of these documents.
quarterly inspections for projects costing over
$500,000.                                                 The Shiprock grant also discussed on-site
                                                          monitoring of the project during construction, yet
                                                          none of the grants included specific language about
                                                          the actual number of site visits to be made.
                                                          Discussions with project managers indicated that
                                                          solicitation documents had been reviewed for four
                                                          of the five projects. In addition, reviews of the
                                                          project files found documentation that grants
                                                          officers and project managers visited sites for only
                                                          one of the projects.



                                                          22
            Proposed BIA Actions                               Office of Inspector General Tests

8. Advance payments. Advance payments for                 Partially Implemented. BIA negotiates
construction projects with a total estimated cost of      advance payments with grantees based on the risk
$100,000 or more will be limited based upon the           rating determined by the OCR. The current version
risk rating assigned to the grantee. In no case will      of the grants handbook, however, does not limit
BIA advance more than 75 percent of the award or          advances to $5 million. We identified two instances
$5 million, whichever is less. Additional payments        where advance payments to grantees far exceeded
will be made only if the grantee is in compliance         the $5 million limitation; specifically, advance
with the material terms of the award and is current       payments to Shiprock Alternative Schools, Inc., and
on submitting required financial and project              Santa Fe Indian School (Phase I) were $13 million
progress reports. As part of the financial reports,       and $17.4 million, respectively. (Additional audit
grantees will be required to provide documentation        tests disclosed a $14.6 million advance payment to
that advanced funds were held only in deposits or         the Second Mesa Day School.)
investments authorized by statute.
                                                          In addition, none of the five grants reviewed
                                                          required grantees to submit financial reports
                                                          documenting where advance funds were deposited
                                                          or invested, and none of the financial reports
                                                          submitted by the grantees included such
                                                          information.

9. Construction grants officers identified.               Implemented. OIEP issued a May 20, 1999
OIEP will identify specific education line officers       memo identifying construction grants officers.
that will receive specialized training in managing        Formal training for these grants officers was
construction grants.                                      conducted from March 23 through March 25, 1999.
                                                          An OFMC official told us that continuous training is
                                                          provided for construction grants officers every time
                                                          a grant recipient is selected for project funding.


10. Expand pool of construction grants                    Partially Implemented. An OFMC official
officers’ technical representatives. BIA                  stated that small projects of less than $250,000 were
will expand the pool of potential GOTRs to include        being implemented with GOTRs located at regional
qualified regional facilities staff that could serve as   offices. The official also said that OFMC had
GOTRs.                                                    requested additional funding of about $5.2 million
                                                          in fiscal year 2003 to address the lack of resources
                                                          in regional offices but had received only about
                                                          $900,000. According to the official, these funds
                                                          were used to hire additional professional staff to
                                                          serve as GOTRs.




                                                          23
Appendix 5
Status of Audit Recommendations
 Recommendation     Status                 Action Required

      1-9         Unresolved    Concur or nonconcur with each
                   Additional   recommendation and provide information
                  Information   on actions taken or planned to implement
                    Needed      each recommendation, including target
                                date and title of official responsible for
                                implementation.




                                  24
How to Report Fraud, Waste, Abuse, and
Mismanagement
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or Insular Area programs and
operations. You can report allegations to us as follows:

     Mail:      U.S. Department of the Interior
                Office of Inspector General
                Mail Stop 5341-MIB
                1849 C Street, NW
                Washington, D.C. 20240

    Phone:      24-Hour Toll Free           (800) 424-5081
                Washington Metro Area       (202) 208-5300
                Hearing Impaired            (202) 208-2420
                Fax                         (202) 208-6081
                Caribbean Region            (340) 774-8300
                Hawaii Field Office         (808) 525-5310

    Internet: www.oig.doi.gov

                 U.S. Department of the Interior
                  Office of Inspector General
                       1849 C Street, NW
                    Washington, D.C. 20240
                         www.doi.gov
                        www.oig.doi.gov
